Inspection Report I-97-09 - Table of Contents
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
USE OF THE VISA PURCHASE CARD IN THE
DEPARTMENT OF JUSTICE
September 1997
Report Number I-97-09
TABLE OF CONTENTS
Transmittal Memorandums
EXECUTIVE DIGEST
The Department's Components Have Not Used the VISA Card to
the Extent Possible
VISA Program Growth in the Department
Figure 1 - VISA Program Growth in the Department
Distribution of Cards
VISA Card Distribution Among Headquarters and Field
Offices in OIG Random Sample
Figure 2 - Percent of Cardholders Located in Headquarters (HQS) and
Field Offices
Figure 3 - Percent of Cardholders Holding Procurement and
Non-Procurement Positions
Restrictions on VISA Card Use
Conclusion
Recommendations
Components' Resistance to VISA Card Use
Has Been Difficult to Overcome
JMD Efforts to Increase VISA Card Use
Department Goals to Increase VISA Card Use
Why Components Are Not Using the VISA Cards
Centralized Procurement Authority
Alternative Procurement and Payment Methods
Fear of Misuse
Conclusion
Recommendation
Internal Controls Are Sufficient but
Components' Program Administration Can Be Improved
GSA's Program Controls
Purchase Limits
Merchant Activity Codes
Key Personnel
The OIG Random Sample
Components' Program Controls
Agency Program Coordinators
Approving Officials
Preapprovals Required
Cardholder Qualifications
Training
Written Delegations of Authority
The OIG Random Sample
Cardholder Responsibilities
The OIG Random Sample
Conclusion
Components' Procedures Could Be Improved
to Take Advantage of the VISA Program Benefits
RMBCS Refunds
Table 1 - Refund Amounts to DOJ Components
Outstanding Accounts
Delinquent Amounts Owed to RMBCS
Credits Owed to the Department
Conclusion
APPENDIX I  -  Objectives, Scope and
Methodology
APPENDIX II  -  Department of Justice
Components Reviewed
APPENDIX III  -  VISA Purchase Program
Growth by Component
APPENDIX IV  -  Types of Purchases in OIG
Random Sample
APPENDIX V  -  Increasing VISA Card Use in
Other Agencies
APPENDIX VI  -  Outstanding Accounts by
Component
APPENDIX VII  -  Justice Management
Division's Response to Draft Report
APPENDIX VIII  -  Office of Justice
Programs' Response to Draft Report
APPENDIX IX  -  Executive Office for United
States Attorneys' Response to Draft Report
APPENDIX X  -  United States Marshals
Service's Response to Draft Report
APPENDIX XI  -  Federal Bureau of
Investigation's Response to Draft Report
APPENDIX XII  -  Office of the Inspector
General's Analysis of Managements' Responses
September 30, 1997
MEMORANDUM FOR STEPHEN R. COLGATE
ASSISTANT ATTORNEY GENERAL
FOR ADMINISTRATION
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997, and requested written comments on the findings and recommendations. Your September
22, 1997, response indicates that you agree with the recommendations.  We have
attached your response as Appendix VII.
On the basis of your written comments, we consider the first two recommendations
resolved and closed. The third recommendation is resolved but will remain open pending
receipt of further information. Appendix XII explains why the recommendation was not
closed and what action is needed for closure.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
your comments and advise us, under separate cover, of any concerns you have relative to
proprietary, confidential or personal information that should not be released to the
general public pursuant to the Freedom of Information Act, the Trade Secrets Act, or any
other applicable law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  Warren Oser
Liaison
Justice Management Division
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR LOUIS J. FREEH
DIRECTOR
FEDERAL BUREAU OF INVESTIGATION
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997. While the report did not contain recommendations for your response, it did include
discussion on use of the VISA purchase card in the Federal Bureau of Investigation (FBI).
Therefore, we offered you the opportunity to provide comments on the report and said we
would consider them for inclusion in the final report if you chose to provide any. Your
response, attached as Appendix XI, stated the FBI does not take issue with either the
substance of the draft report or its findings and recommendations.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
your comments and advise us, under separate cover, of any concerns you have relative to
proprietary, confidential or personal information that should not be released to the
general public pursuant to the Freedom of Information Act, the Trade Secrets Act, or any
other applicable law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  Jack Smith McCoy
Liaison
Federal Bureau of Investigation
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR LAURIE ROBINSON
ASSISTANT ATTORNEY GENERAL
OFFICE OF JUSTICE PROGRAMS
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997, and requested written comments on the findings and recommendation. Your August 25,
1997, response indicates that you agree with the recommendation. We have attached your
response as Appendix VIII.
On the basis of your written comments, we consider the recommendation resolved and
closed. Appendix XII explains that the recommendation was closed and that no further
response is required by our office. Please inform the Justice Management Division when
final corrective actions have been taken.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
your comments and advise us, under separate cover, of any concerns you have relative to
proprietary, confidential or personal information that should not be released to the
general public pursuant to the Freedom of Information Act, the Trade Secrets Act, or any
other applicable law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  Jerry Conty
Liaison
Office of Justice Programs
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR CAROL DIBATTISTE
DIRECTOR
EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997, and requested written comments on the findings and recommendation. Your August 29,
1997, response indicates that you agree with the recommendation. We have attached your
response as Appendix IX.
On the basis of your written comments, we consider the recommendation resolved and
closed. Appendix XII explains that the recommendation was closed and that no further
response is required by our office. Please inform the Justice Management Division when
final corrective actions have been taken.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
your comments and advise us, under separate cover, of any concerns you have relative to
proprietary, confidential or personal information that should not be released to the
general public pursuant to the Freedom of Information Act, the Trade Secrets Act, or any
other applicable law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  David Downs
Liaison
Executive Office for United States Attorneys
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR EDUARDO GONZALEZ
DIRECTOR
UNITED STATES MARSHALS SERVICE
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997, and requested written comments on the findings and recommendation. Your September
10, 1997, response indicates that you agree with the recommendation. We have attached your
response as Appendix X.
On the basis of your written comments, we consider the recommendation resolved and
closed. Appendix XII explains that the recommendation was closed and that no further
response is required by our office. Please inform the Justice Management Division when
final corrective actions have been taken.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
your comments and advise us, under separate cover, of any concerns you have relative to
proprietary, confidential or personal information that should not be released to the
general public pursuant to the Freedom of Information Act, the Trade Secrets Act, or any
other applicable law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  Lucia C. Clark
Liaison
United States Marshals Service
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR KATHLEEN M. HAWK
COMMISSIONER
FEDERAL PRISON INDUSTRIES
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997. While the report did not contain recommendations for your response, it did include
discussion on use of the VISA purchase card in the Federal Prison Industries. Therefore,
we offered you the opportunity to provide comments on the report and said we would
consider them for inclusion in the final report if you chose to provide any. We did not
receive any comments from you.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
advise us, under separate cover, of any concerns you have relative to proprietary,
confidential or personal information that should not be released to the general public
pursuant to the Freedom of Information Act, the Trade Secrets Act, or any other applicable
law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  Ira B. Kirschbaum
Liaison
Federal Prison Industries
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR KATHLEEN M. HAWK
DIRECTOR
BUREAU OF PRISONS
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997. While the report did not contain recommendations for your response, it did include
discussion on use of the VISA purchase card in the Bureau of Prisons. Therefore, we
offered you the opportunity to provide comments on the report and said we would consider
them for inclusion in the final report if you chose to provide any. We did not receive any
comments from you.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
advise us, under separate cover, of any concerns you have relative to proprietary,
confidential or personal information that should not be released to the general public
pursuant to the Freedom of Information Act, the Trade Secrets Act, or any other applicable
law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  Keith E. Hall
Liaison
Bureau of Prisons
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997. While the report did not contain recommendations for your response, it did include
discussion on use of the VISA purchase card in the Immigration and Naturalization Service.
Therefore, we offered you the opportunity to provide comments on the report and said we
would consider them for inclusion in the final report if you chose to provide any. We did
not receive any comments from you.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
advise us, under separate cover, of any concerns you have relative to proprietary,
confidential or personal information that should not be released to the general public
pursuant to the Freedom of Information Act, the Trade Secrets Act, or any other applicable
law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc: Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
September 30, 1997
MEMORANDUM FOR THOMAS A. CONSTANTINE
ADMINISTRATOR
DRUG ENFORCEMENT ADMINISTRATION
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection of the Use of the VISA Purchase Card
in the Department of Justice, Report Number I-97-09
Attached is our final report on the subject inspection.
The Inspections Division sent copies of the draft report to your office on July 30,
1997. While the report did not contain recommendations for your response, it did include
discussion on use of the VISA purchase card in the Drug Enforcement Administration (DEA).
Therefore, we offered you the opportunity to provide comments on the report and said we
would consider them for inclusion in the final report if you chose to provide any. The DEA
liaison informed us, via telephone, that the DEA did not have any comments on the VISA
report.
As a matter of policy, Office of the Inspector General final inspection reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
advise us, under separate cover, of any concerns you have relative to proprietary,
confidential or personal information that should not be released to the general public
pursuant to the Freedom of Information Act, the Trade Secrets Act, or any other applicable
law or policy.
We appreciate the cooperation extended to the Inspections Division staff during the
review. If you have any suggestions as to how we might improve our review process, please
let us know.
Attachment
cc:  Frank J. Proietti
Liaison
Drug Enforcement Administration
Vickie L. Sloan
Director
Audit Liaison Office
EXECUTIVE DIGEST
At the request of the Assistant Attorney General for Administration, the Office of the
Inspector General has completed a review of the Department's VISA purchase card program.
The objectives of the inspection were to determine the extent of VISA card use, identify
any barriers to increased use, and assess the program's internal controls.
The Department has established goals for VISA card use and the Justice Management
Division has encouraged the components to use the VISA card. Despite these efforts, the
components have not used the VISA card to the fullest extent possible. Most of the
components have designated cardholders in their field and program offices and have
increased their use of the VISA cards. However, some of the components have not
distributed VISA cards to all field and program offices. In addition, some of the
components have imposed restrictions on the types of purchases that can be made with the
VISA card. We recommend that the United States Marshals Service, the Office of Justice
Programs and the Executive Office for United States Attorneys complete implementation of
their VISA card programs by distributing cards to program and field offices that do not
have them. We suggest that the components reassess their restrictions on VISA card
purchases to allow maximum use of the VISA card.
Use of the VISA card has not increased in some components because they prefer
alternative procurement and payment methods. Fear that employees would not use the VISA
card appropriately has also contributed to the lack of distribution and use in the
components. Our review of a sample of cardholders' transactions indicates that, overall,
the Department's cardholders use their VISA cards responsibly and that misuse is not a
significant problem. We recommend that the Department mandate VISA card use for
micropurchases (purchases under $2,500), when possible.
The internal controls inherent in the VISA program and the components' administrative
procedures, overall, are sufficient to prevent and detect misuse. However, in some
components, designated approving officials are responsible for a large number of
cardholders. We suggest that components ensure that the number of cardholders assigned to
an approving official is small enough to provide appropriate oversight. Direct oversight
of cardholders' activities can lessen the potential for misuse. If the approving official
or the cardholder's supervisor is not collocated with the cardholder, there should be a
separation of duties to ensure that someone other than the cardholder is responsible to
receive items purchased.
None of the components takes full advantage of the refund available from Rocky Mountain
BankCard System, which is determined by how quickly the component pays the invoice, the
method by which it receives and pays the invoice, and the method by which it receives its
management reports. We suggest that the components reassess their procedures for not
paying the invoices upon receipt. The components could also receive a larger refund if
they received and paid the invoices electronically and received their management reports
electronically. We suggest that the components determine their capabilities to receive and
pay invoices and reports electronically.
The Department's Components Have Not
Used the VISA Card to the Extent Possible
The Department has participated in the General Services Administration's (GSA)
Governmentwide Commercial Credit Card Services Program since the program began in 1989.
The current GSA contractor for the program, Rocky Mountain BankCard System (RMBCS), issues
VISA cards and refers to them as purchase cards.
Use of the VISA purchase card is intended to be a more efficient and less costly method
of procurement than traditional methods, such as purchase orders. The VISA card can also
be used to place orders against established contracts (if the terms of the contracts
authorize its use) or as a payment method. Although it can be used for purchases up to the
simplified acquisition threshold of $100,000, the Department's use of the VISA cards has
been primarily for purchases at or below $2,500, called micropurchases.1
In the Department, the components are responsible for implementing and administering
their own VISA card programs based on policy and guidance established by the Justice
Management Division (JMD). The Attorney General has encouraged VISA card use in the
Department and JMD has promoted the VISA card program in the components. However, the
Department has not been as successful in increasing its use of the VISA card as some other
federal agencies.
VISA Program Growth in the Department
The Department has authorized VISA cards since 1989, but did not actively promote their
use until Fiscal Year (FY) 1993. From FY 1993 to FY 1995, the Department's number of
cardholders and transactions grew slowly. However, the Department significantly increased
its number of VISA cardholders and transactions in FY 1996. Figure 1 illustrates the
Department's VISA program growth since FY 1993. Appendix III provides this information in
more detail and by component. Much of the increase from FY 1995 to FY 1996 resulted from
full implementation of VISA programs in the Bureau of Prisons (BOP), the Drug Enforcement
Administration (DEA), and the Federal Prison Industries (FPI).
Figure 1 - VISA Program Growth in the
Department
(FY 1993 - FY 1996)
From FY 1993 to FY 1995, the Department increased the number of cardholders from 312 to
2,288, the number of transactions from 5,653 to 52,536, and the total amounts charged to
VISA from $2.3 million to $17.6 million. According to the Financial Implementation Team
for Electronic Commerce (FITEC), however, the Department used the card for less than 10
percent of its total number of micropurchases in FY 1995.2
Between FY 1995 and FY 1996, the Department increased its number of cardholders to
7,810 (an increase of 241 percent), its number of transactions to 188,287 (an increase of
258 percent) and the amount charged to $73.4 million (an increase of 316 percent). Despite
the significant growth in one year, FITEC data for FY 1996 indicate that the Department
still only used the VISA card for 31 percent of its total micropurchases.
Distribution of Cards
A goal of the VISA program is wide distribution of the cards to employees, who can
benefit from their use. To achieve this goal, the components must authorize VISA cards for
all program and field offices and for employees in both procurement and non-procurement
positions. In the Department, all program and field offices in the BOP, the DEA, the
Federal Bureau of Investigation (FBI), the FPI, the Immigration and Naturalization Service
(INS), and the Office of the Inspector General (OIG) have VISA cards. We found the
following among the remaining components:
· In the United States Marshals Service (USMS), 6 of the 94 district offices do not
have VISA cards. 3
· In the United States Attorneys' Offices (USAO), 7 of 94 district offices do not have
VISA cards.
· In the Office of Justice Programs (OJP), none of the five major program offices has
VISA cards.
VISA Card Distribution Among Headquarters and
Field Offices in OIG Random Sample
Based on a random sample of VISA transactions made during the Department's billing
period, April 16-May 15, 1996, we assessed whether cardholders were located in
Headquarters offices or field offices and whether these cardholders were in procurement or
non-procurement positions.4 We determined that 23 percent of the
594 cardholders in our sample were considered Headquarters staff, typically located in the
Washington, DC, area. The remaining 77 percent were in field locations throughout the
country. Figure 2 illustrates this data.
Figure 2 - Percent of Cardholders Located
in Headquarters (HQS) and Field Offices
Most of the components have authorized VISA cards for employees in procurement positions
and non-procurement positions. Employees in non-procurement positions are typically
administrative support personnel who make purchases for the program offices, but can
include other program office personnel such as attorneys and special agents. As of
September 30, 1996, OJP had only three cardholders and all of them were in procurement
positions.
Based on the OIG random sample, we determined that 14 percent of the 594 cardholders
held traditional procurement positions and 86 percent held non-procurement positions. The
following are examples of cardholders in the non-procurement positions: administrative
officers, factory foremen, Deputy United States Marshals, Border Patrol Agents,
carpenters, and plumbers. Figure 3 shows, by component, the percentage of cardholders in
our sample, who are in procurement and non-procurement positions.
Figure 3 - Percent of Cardholders
Holding Procurement and Non-Procurement Positions
Our field work showed that most of the components have distributed VISA cards to field and
program offices and to personnel in non-procurement positions, thereby improving the
opportunity for increased VISA card use in the Department.
Restrictions on VISA Card Use
The VISA card can be used for most goods and services available in the commercial
market. (Appendix IV illustrates the types of purchases made by cardholders in the OIG
random sample.) However, the GSA contract restricts its use for such items as cash
advances, telecommunications services and hotel expenses associated with employee travel
(unless the government travel card, American Express, is not accepted). In addition to the
GSA contract restrictions, some components have imposed restrictions on the types of
purchases for which their cardholders can use the VISA card. We found the following
restrictions:
· Cardholders in BOP cannot purchase controlled property, i.e., items that must be
added to the property inventory system or could compromise an institution's security.
· Cardholders in DEA cannot purchase services for maintenance on ADP equipment,
copiers, etc.
· Cardholders in FPI cannot purchase raw materials for manufacturing.
· Cardholders in INS must review a "Don't Buy List" of prohibited items,
which includes items such as certain types of subscriptions and filing equipment. The list
also includes some purchases for which the VISA card can be used, such as ADP equipment,
but require approval before the purchases can be made.
· Cardholders in the USMS cannot purchase copy equipment or printing services.
· Cardholders in the Offices, Boards, and Divisions (OBD), which include OJP and the
OIG, cannot purchase on-going services such as maintenance and janitorial services. In
addition, the OIG cardholders cannot purchase office equipment.
Some of the OBDs and other Department components have used a service offered by the DOJ
Library to purchase their publications. As a result, cardholders in these components were
prohibited from purchasing these publications. Because the DOJ Library procurement
procedures did not include the VISA card, the Assistant Attorney General for
Administration changed this service to increase VISA card use in the Department. Effective
January 1997, the cardholders in the OBDs and other Department components are authorized
to purchase one-time publications, local newspapers, and magazines under a total of
$2,500.
Conclusion
The components have expanded their VISA purchase card programs and are beginning to
increase their use of the card. However, the Department cannot achieve maximum VISA card
use until all program and field offices in the components have VISA cards available to
them. We suggest that the components reassess their restrictions on VISA card purchases
and modify them, if practicable, to authorize employees to use their VISA cards for all
purchases possible.
RECOMMENDATIONS
The Inspections Division recommends that the Director, USMS; the Assistant Attorney
General, OJP; and the Director, EOUSA :
1. Complete implementation of the VISA card program by distributing VISA cards to major
field and program offices, which do not have them, or notify the Assistant Attorney
General for Administration why this is not feasible.
The Inspections Division recommends that the Assistant Attorney General for
Administration:
2. Assess actions taken by the USMS, OJP, and EOUSA to complete VISA program
implementation and advise us when card distribution is complete.
1 Micropurchases are exempt from the general requirements for
competition, the Buy American Act and some small business requirements.
2 FITEC is an interagency committee under the guidance of the
Chief Financial Officer Council, which is composed of chief financial officers and their
deputies from approximately 24 federal agencies who meet periodically to work on common
areas of concern.
3 As of July 1997, only two USMS district offices and two
USAOs do not have VISA cards.
4 The OIG random sample is discussed further in Appendix I.
#####